No. 21-194
IN THE

Supreme Court of tlje fHuttcb States?
CALIFORNIA TRUCKING ASSOCIATION, INC., ET AL. ,
Petitioners ,
v.

ROB BONTA , ATTORNEY GENERAL OF CALIFORNIA ,
ET AL . ,
Respondents .

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

I , STACEY M. LEYTON , a member of the Bar of
this Court , pursuant to Supreme Court Rule 29.5(b) ,
hereby certify that on October 12 , 2021, three copies
of the Brief In Opposition of Intervenor - Respondent
International Brotherhood of Teamsters in California
Trucking Association, Inc. v. Bonta, et al., No. 21-194 ,
were sent , via United Parcel Service for Next Business
Day Delivery , to:

Charles Rothfeld
Mayer Brown LLP
1999 K St N.W.
Washington , DC 20006
crothfeld@ mayerbrown .com

Counsel for Petitioners California Trucking
Association, Inc., et al .

Jose A. Zelidon - Zepeda
Deputy Attorney General
455 Golden Gate Avenue , Suite 11000
San Francisco, CA 94102 -7004
Tel: ( 415) 510 - 3879
Jose.ZelidonZepeda@doj.ca . gov
Counsel for Respondents Attorney General Rob
Bonta, et al.

An electronic copy of this document was also
served on October 12 , 2021 to these e - mail addresses:
crothfeld@ mayerbrown.com
Jose.ZelidonZepeda@doj.ca .gov

I further certify that all parties required to be
served have been served .
Dated: October 12 , 2021

Stacey M . Leyton
ALTSHULER BERZON LLP
177 Post Street , Suite 300

San Francisco, CA 94108
(415) 421- 7151
sleyton@altber.com
Counsel for Intervenor - Respondent
International Brotherhood of Teamsters

